                                    Report Template Update: 06-30-07




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 FEE-FOR-SERVICE PAYMENTS 

  FOR SERVICES COVERED BY 

CAPITATED MEDICAID MANAGED 

           CARE 





                    Daniel R. Levinson

                     Inspector General 


                       July 2008

                     OEI-07-05-00320

                                                                      Report Template Update: 06-30-07




                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
                                                                                                        Report Template Update: 06-30-07




E X E C U T I V E                        S U            M M A R Y
Δ    E X E C U T I V E                                      S U M M A R Y


                   OBJECTIVE
                   To determine the extent to which Medicaid programs in five States paid
                   noninstitutional fee-for-service claims for services provided to
                   beneficiaries enrolled in capitated Medicaid managed care plans during
                   the first quarter of fiscal year (FY) 2005.


                   BACKGROUND
                   The Centers for Medicare & Medicaid Services (CMS) estimates that
                   over 65 percent of the Nation’s Medicaid beneficiaries received all or
                   some of their health or mental health services through managed care
                   in 2006. In capitated managed care arrangements, State Medicaid
                   programs pay managed care plans a fixed rate per Medicaid beneficiary
                   in exchange for services included in the plan. Except in limited
                   circumstances specified by the State (e.g., the beneficiary receives
                   services outside the managed care plan coverage area), Medicaid
                   programs should not pay claims for services that are included in
                   capitated Medicaid managed care plans on a fee-for-service basis.
                   Otherwise, Medicaid programs pay twice for the same service—once
                   through the fee-for-service claim and once as a portion of the capitated
                   payment. We selected five States for this review based on the
                   percentage of the States’ Medicaid populations enrolled in
                   managed care.


                   FINDINGS
                   In the first quarter of FY 2005, Medicaid programs in four of the five
                   States that we reviewed erroneously paid nearly $864,000 for
                   fee-for-service claims. We identified 16,621 fee-for-service claims
                   totaling $863,664 paid in error for capitated Medicaid managed care
                   covered services in California, Missouri, New York, and Wisconsin during
                   the first quarter of FY 2005. The Federal share of these claims paid in
                   error was $462,087. Manual overrides of Medicaid automated payment
                   system edits and faulty system logic contributed to the claims paid in
                   error.
                   An additional $974,006 was potentially paid in error in two States in
                   the first quarter of FY 2005. We identified an additional
                   23,069 fee-for-service claims totaling $974,006 that appeared to be for
                   services covered by capitated Medicaid managed care plans in California
                   and Pennsylvania. However, State staff indicated that determining

 OEI-07-05-00320   F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   i
                                                                                                        Report Template Update: 06-30-07




E X E C U T I V E                        S U            M M A R Y


                   whether the claims were paid in error would require resource-intensive
                   reviews of these claims, which could involve researching the Medicaid
                   automated payment system edits applied to each claim, identifying any
                   manual overrides of system edits, reviewing the claims payment history,
                   and tracking systems processing logic. Without this type of review,
                   neither the Office of Inspector General nor State Medicaid agency staff
                   could definitively determine whether these fee-for-service claims were
                   paid in error.


                   RECOMMENDATIONS
                   When Medicaid programs pay fee-for-service claims for services covered
                   by capitated Medicaid managed care plans in error, they are essentially
                   paying twice for the same services. We identified approximately
                   $1.8 million (i.e., State expenditures and Federal financial
                   participation) in total Medicaid claims paid or potentially paid in error
                   during a single quarter in the five States that we reviewed. State
                   Medicaid agency staff either acknowledged that these claims were paid
                   in error, describing faulty system logic, edits, and manual overrides as
                   reasons for these errors, or explained why determining whether claims
                   were paid in error was not feasible. These challenges point to
                   vulnerabilities in claims processing. Therefore, we recommend that
                   CMS:
                   Work with all States to reduce the vulnerability for erroneous fee-for-service
                   Medicaid payments for services covered by capitated Medicaid managed
                   care plans. CMS should issue guidance to States addressing Medicaid
                   payment systems’ vulnerabilities, identifying erroneous payments, and
                   developing payment systems to prevent payment errors. CMS could
                   accomplish this through disseminating information to State Medicaid
                   agencies regarding the vulnerabilities that we identified; encouraging
                   every State to examine existing Medicaid claims payment systems to
                   identify potential errors and to determine whether errors identified are
                   associated with State automated payment system logic, edits, and manual
                   overrides; and providing technical assistance and information to State
                   Medicaid agencies regarding the importance of developing Medicaid claims
                   payment systems that will enable State Medicaid agency staff and
                   external reviewers to more easily identify and prevent fee-for-service
                   payments for services covered by capitated Medicaid managed care plans.




 OEI-07-05-00320   F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   ii
                                                                                                        Report Template Update: 06-30-07




E X E C U T I V E                        S U            M M A R Y



                   Take appropriate action to collect overpayments associated with Medicaid
                   claims paid in error from States. OIG will forward to CMS the identified
                   erroneous fee-for-service claims information needed to take appropriate
                   action.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its written comments, CMS agreed with the recommendation
                   contained in the draft report. CMS recognized the importance of
                   ensuring that erroneous payments are eliminated to the fullest extent
                   possible. CMS offered as context the small amount of erroneous claims
                   that we identified and the complexity of the States’ Medicaid managed
                   care programs that we reviewed. However, the claims paid in error
                   demonstrate how these complex programs can lead to the vulnerabilities
                   identified. CMS noted in its comments that for many situations cited in
                   the report, States should have been able to control erroneous payments
                   with edits in their payment systems. OIG is now recommending that
                   CMS collect overpayments associated with the claims paid in error from
                   the States.

                   To address the OIG recommendations, CMS will remind States of the
                   importance of eliminating erroneous payments and recommend that
                   States make any necessary edits to their payment systems at the next
                   Medicaid Managed Care Technical Advisory Group call. Additionally,
                   CMS will work with States to voluntarily collect the overpayments
                   associated with erroneous fee-for-service payments.




 OEI-07-05-00320   F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   iii
                                                                                                             Report Template Update: 06-30-07




Δ      T A B L E                         O F                  C O N T E N T S


                  EXECUTIVE SUMMARY .....................................i




                  INTRODUCTION ........................................... 1




                  FINDINGS ................................................. 6

                              Four of the five States’ Medicaid programs paid fee-for-service 

                              claims in error . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6 


                              Two State Medicaid programs may have paid additional claims

                              in error . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 




                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                              Agency Comments and Office of Inspector General Response . . . 11 




                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                              A: 	Totals by State of Medicaid Managed Care Enrollment 

                                  and Fee-for-Service Paid Claims for Medicaid 

                                  Beneficiaries Enrolled in Capitated Managed Care

                                  During the First Quarter of FY 2005 . . . . . . . . . . . . . . . . . . . . 12 


                              B:	 Examples of Services Excluded From Capitated Medicaid 

                                  Managed Care in the Five States . . . . . . . . . . . . . . . . . . . . . . . 13 


                              C: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 





                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 





OEI-07-05-00320         F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   iv
                                                                                                       Report Template Update: 06-30-07




Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine the extent to which Medicaid programs in five States paid
                  noninstitutional fee-for-service claims for services provided to
                  beneficiaries enrolled in capitated Medicaid managed care plans during
                  the first quarter of fiscal year (FY) 2005.


                  BACKGROUND
                  States and the Federal Government jointly fund medical and
                  health-related services for low-income individuals, families, the elderly,
                  and disabled who meet State and Federal eligibility criteria through
                  State Medicaid programs. States have the option to provide Medicaid
                  services to eligible beneficiaries solely on a fee-for-service basis, through
                  managed care arrangements, or through both fee-for-service and
                  managed care arrangements. Over the past 10 years, beneficiary
                  enrollment in Medicaid managed care plans has increased.1 The
                  Centers for Medicare & Medicaid Services (CMS) estimates that over
                  65 percent of the Nation’s Medicaid beneficiaries received all or some of
                  their health or mental health services through managed care in 2006.2
                  In capitated Medicaid managed care arrangements, State Medicaid
                  programs pay managed care plans a fixed rate per Medicaid beneficiary
                  in exchange for services included in the plan.3 Except in limited
                  circumstances specified by the State (e.g., the beneficiary receives
                  services outside the managed care plan coverage area), Medicaid
                  programs should not pay claims for services that are included in
                  capitated Medicaid managed care plans on a fee-for-service basis.




                      1 “2006 Medicaid Managed Care Enrollment Report,” Managed Care Trends, p. 3.
                  Available online at
                  http://www.cms.hhs.gov/MedicaidDataSourcesGenInfo/04_MdManCrEnrllRep.asp#TopOfPa
                  ge. Accessed on June 1, 2007.
                    2 “2006 Medicaid Managed Care Enrollment Report,” Medicaid Managed Care
                  Penetration Rates, p. 5. Available online at
                  http://www.cms.hhs.gov/MedicaidDataSourcesGenInfo/04_MdManCrEnrllRep.asp#TopOfPa
                  ge. Accessed on June 1, 2007.
                      3 Although States utilize a variety of managed care arrangements to provide Medicaid
                  services to eligible beneficiaries (e.g., capitated managed care, primary care case
                  management), this evaluation focused strictly on services provided through capitated
                  Medicaid managed care.



OEI-07-05-00320   F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   1
                                                                                                         Report Template Update: 06-30-07




I N T R O D        U C T              I O N


                    Otherwise, Medicaid programs pay twice for the same service—once
                    through the fee-for-service claim and once as a portion of the capitated
                    payment.

                    Medicaid programs are responsible for ensuring the integrity of all
                    Medicaid paid claims.4 In processing claims for services provided to
                    Medicaid beneficiaries, States’ automated claims payment systems
                    should first determine whether beneficiaries are enrolled in capitated
                    Medicaid managed care plans. For beneficiaries enrolled in capitated
                    Medicaid managed care plans, States’ automated claims payment
                    systems should determine whether the beneficiaries’ plans cover the
                    services or whether the claims are appropriate for fee-for-service
                    payments. States’ Medicaid automated payment systems should deny
                    fee-for-service claims for services covered by the capitated Medicaid
                    managed care plans unless beneficiaries and services meet
                    State-specified conditions that allow the beneficiaries to receive the
                    services outside of the managed care plans.
                    Prior Office of Inspector General Work
                    An Office of Inspector General (OIG) study published in February
                    2003 identified approximately $4 million in erroneous fee-for-service
                    Medicaid payments in the State of Florida for services covered by a
                    capitated Medicare managed care plan. These errors occurred because
                    the State’s Medicaid automated payment system was not updated to
                    reflect the enrollment of dually eligible Medicaid beneficiaries in
                    managed care.5 A September 2003 OIG study found that the State of
                    Ohio made fee-for-service Medicaid payments for services that capitated
                    Medicaid managed care plans covered.6 The study revealed that
                    systems processes designed to prevent fee-for-service payments for
                    managed care enrollees had been bypassed, resulting in $1 million in
                    erroneous payments between July 2000 and June 2001.




                        4 Social Security Act § 1902a(37)(B), 42 U.S.C. § 1396a.
                        5 “Medicaid Fee-for-Service Payments for Dually Eligible Medicare Managed Care
                    Enrollees,” A-04-02-07007, February 2003.
                     6 “Review of Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Medicaid
                    Managed Care,” A-05-02-00079, September 2003.



 OEI-07-05-00320    F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   2
                                                                                                         Report Template Update: 06-30-07




I N T R O D        U C T              I O N 





                    METHODOLOGY
                    Scope
                    We selected five States for this review: California, Missouri, New York,
                    Pennsylvania, and Wisconsin. State selection was based on the States’
                    Medicaid populations relative to the percentage of their Medicaid
                    beneficiaries enrolled in managed care.7 Table 1 below provides an
                    overview of Medicaid enrollment, expenditures, and number of Medicaid
                    managed care plans in the five States.8 Because of the large number of
                    fee-for-service claims processed in each State and to ensure a more
                    manageable scope, we included only outpatient fee-for-service payments
                    in this review. Fee-for-service payments for services provided by
                    pharmacies, in hospitals, and in long term care and other institutional
                    settings were excluded from this review.


                    Table 1: State Medicaid Facts for Fiscal Year 2005

                                                                            Percentage of
                                                                                                                                Number of
                                                                                Medicaid                 Medicaid
                                                     Medicaid                                                                    Medicaid
                    State                                                    Beneficiaries          Expenditures
                                                    Population                                                                   Managed
                                                                               Enrolled in            (in billions)
                                                                                                                                Care Plans
                                                                            Managed Care

                    California                        3,355,339                      50.49                        $33.6                       46

                    Missouri                             469,808                     44.17                          $6.5                        9

                    New York                          2,606,291                      61.83                        $42.7                       76

                    Pennsylvania                      1,248,390                      75.35                        $15.7                       29

                    Wisconsin                            386,037                     45.38                          $4.7                      41

                        Total                         8,065,865                                                 $103.2                      201

                    Source: Medicaid Managed Care Enrollment Report.




                       7 “2004 Medicaid Managed Care Enrollment Report,” Medicaid Managed Care Program
                    Summary, pp. 21–54. Available online at
                    http://www.cms.hhs.gov/MedicaidDataSourcesGenInfo/04_MdManCrEnrllRep.asp#TopOfPage.
                    Accessed on May 30, 2007.
                        8 See Appendix A for an overview of Medicaid managed care enrollment and
                    fee-for-service paid claims for Medicaid beneficiaries enrolled in managed care during the
                    first quarter of FY 2005.



 OEI-07-05-00320    F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   3
                                                                                                         Report Template Update: 06-30-07




I N T R O D        U C T              I O N


                    Data Collection
                    Beneficiaries Enrolled in Capitated Medicaid Managed Care Plans. From
                    each of the five States’ Medicaid Management Information Systems
                    (MMIS), we obtained Medicaid eligibility data for beneficiaries enrolled
                    in capitated managed care plans at any time during the first quarter
                    of FY 2005. The beneficiary information included, at a minimum, each
                    beneficiary’s unique Medicaid identification number, date of birth, dates
                    of Medicaid eligibility, county codes, managed care plan identifier, and
                    beginning and ending dates of managed care enrollment.
                    Medicaid Fee-for-Service Claims. For each of the five States, we obtained
                    the adjudicated Medicaid fee-for-service paid claims files from the
                    State’s MMIS for all services performed in noninstitutional settings
                    during the first quarter of FY 2005. The adjudicated paid claims files
                    included, at a minimum, each beneficiary’s unique Medicaid
                    identification number, procedure code, procedure description, provider
                    type, date of service, service category, diagnosis code, place of service,
                    unit of service, amount billed to Medicaid, an indication of whether the
                    claim was paid or denied, any Medicaid paid amount, and the date of
                    payment.
                    Data Analysis
                    Fee-for-Service Claims for Services Covered by Capitated Medicaid
                    Managed Care Plans. For each of the five States, we identified all
                    fee-for-service claims that Medicaid paid for services provided to
                    beneficiaries who were enrolled in capitated Medicaid managed care
                    plans during the first quarter of FY 2005. To do this, we identified
                    beneficiaries enrolled in Medicaid managed care and the beginning and
                    ending dates each beneficiary was enrolled in Medicaid managed care. We
                    then used each beneficiary’s unique Medicaid identification number to
                    identify fee-for-service claims that fell on or between the beginning and
                    ending dates of managed care enrollment.

                    We obtained information from each State about the services that the
                    capitated Medicaid managed care plans covered. If a managed care
                    plan excluded a service (i.e., did not cover the service), we considered
                    fee-for-service to be an appropriate method of payment for that service
                    and did not question the fee-for-service payment. Examples of services
                    excluded from capitated Medicaid managed care coverage in these five
                    States are summarized in Appendix B.




 OEI-07-05-00320    F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   4
                                                                                                         Report Template Update: 06-30-07




I N T R O D        U C T              I O N


                    For the remaining fee-for-service claims that fell within periods when
                    beneficiaries were enrolled in capitated Medicaid managed care plans,
                    we worked with multiple individuals in each State’s Medicaid agency to
                    interpret complex eligibility and claims data, program and managed
                    care policy, and managed care plan coverage information to identify
                    fee-for-service claims paid:

                    •       correctly and why,9 and
                    •       in error and why.

                    Federal and State Shares of Fee-for-Service Claims Paid in Error. We calculated
                    the Federal and State shares of fee-for-service claims paid in error for each
                    of the five States. We calculated these amounts by multiplying the
                    expenditures for payments determined to be paid in error in each State by
                    the Federal medical assistance percentage (FMAP) rate established
                    specifically for that State. The FMAP rates for the five States reviewed
                    varied between 50 percent and 61.15 percent as specified in Table 2 on
                    page 6.

                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




                      9 States used data and information not available to us to determine whether the
                    remaining fee-for-service claims were paid in error (e.g., beneficiaries were enrolled in
                    waivers or State programs that enabled them to receive specific services covered by
                    managed care plans on a fee-for-service basis and State-approved manual overrides of
                    States’ Medicaid automated payment systems).



 OEI-07-05-00320    F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   5
                                                                                                        Report Template Update: 06-30-07




Δ   F I N D I N G S

          In the first quarter of FY 2005, Medicaid            We identified
       programs in four of the five States that we             16,621 fee-for-service claims
                 reviewed erroneously paid nearly              totaling $863,664 for capitated
               $864,000 for fee-for-service claims             Medicaid managed care
                                                               covered services in California,
                   Missouri, New York, and Wisconsin. These claims were identified from
                   nearly 8.5 million fee-for-service claims for services provided to
                   beneficiaries enrolled in capitated Medicaid managed care plans during
                   the first quarter of FY 2005. Medicaid staff from the four States
                   acknowledged that these fee-for-service claims were paid in error
                   because the services were included in the capitated rates paid to the
                   Medicaid managed care plans. We analyzed the erroneously paid claims
                   data to determine trends and/or service categories associated with the
                   payments made in error across the four States; however, errors were
                   not concentrated in any particular service categories (e.g., case
                   management, dental screenings, laboratory services, organ transplants,
                   and substance abuse treatment). A summary of the fee-for-service
                   claims paid in error in each of the four States is provided in Table 2.




                  Table 2: Medicaid Fee-For-Service Paid Claims Paid in Error During the
                  First Quarter of FY 2005

                                          Number of                                          FMAP
                  State                                                Total Payments                                State Share               Federal Share
                                            Claims                                        (percent)

                  CA                               2,343                     $115,296            50.00                     $57,648                      $57,648

                  MO                               1,657                     $270,409            61.15                   $105,054                      $165,355

                  NY                             12,597                      $476,713            50.00                   $238,357                      $238,357

                  WI                                    24                     $1,246            58.32                          $519                      $727

                  Total                          16,621                      $863,664                                    $401,578                      $462,087

                  Source: Office of Inspector General analysis of reimbursed claims, 2007.


                   California. We identified 2,343 Medicaid claims totaling $115,296 paid in
                   error for medical supplies that capitated Medicaid managed care plans
                   covered. State Medicaid agency staff acknowledged that these claims
                   were paid in error as a result of issues in their State’s Medicaid
                   automated payment system. They reported that they had previously
                   identified 186 of these claims paid in error, had implemented edits to


OEI-07-05-00320    F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E       6
                                                                                                           Report Template Update: 06-30-07




F   I N D I N G 
S


                      prohibit erroneous payments for these services in the future, and were
                      in the process of recouping the erroneous payments.
                      Missouri. We identified 1,657 Medicaid claims totaling $270,409 paid
                      in error. Of these claims, 1,573 were for dental services totaling
                      $267,480. These errors resulted from inappropriate manual overrides of
                      the State’s Medicaid automated payment system edit designed to
                      prevent fee-for-service payments for services covered by capitated
                      Medicaid managed care. Additionally, 84 claims totaling $2,928 were
                      paid for services provided to newborns whose Medicaid eligibility files
                      had not been updated at the time of claims processing. State Medicaid
                      agency staff reported that payments for services to newborns under
                      these circumstances are not unusual and that the State has processes in
                      place to recoup erroneous payments made on behalf of newborns.
                      However, the edits established for detection of inappropriate claims did
                      not reject these 84 claims. As a result of our review, the State Medicaid
                      agency provided formal training to fiscal agent staff regarding payment
                      of claims for dental services and instituted an additional level of review
                      for services provided to newborns.
                      New York. We identified 12,597 Medicaid claims totaling $476,713 paid
                      in error. Although State Medicaid agency staff indicated that some of
                      the errors were due to problems with the State’s Medicaid automated
                      payment system, they were unable to explain why other claims were
                      paid. Our review found that 3,357 of these claims were for physical and
                      mental health services provided in a clinic or an office and 296 were for
                      dental services. The remaining claims were for a variety of other
                      services. As a result of our review, the State Medicaid agency staff
                      informed us that our evaluation better prepared them to respond to
                      Payment Error Rate Measurement program questions.10
                      Wisconsin. We identified 24 Medicaid claims totaling $1,246 paid in
                      error. State Medicaid agency staff indicated that these claims were paid
                      because the beneficiaries’ managed care plan designations had not been
                      updated to the appropriate file in the State’s automated Medicaid
                      payment system at the time of claims processing.




                          10 Beginning in FY 2007, States were required to conduct eligibility reviews of both
                      Medicaid and State Children’s Health Insurance Programs’ beneficiaries and report
                      payment error dollar amounts every 3 years.



    OEI-07-05-00320   F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   7
                                                                                                            Report Template Update: 06-30-07




 F   I N D I N G         S



   An additional $974,006 was potentially paid in             We identified an additional
error in two States in the first quarter of FY 2005           23,069 fee-for-service claims
                                                              totaling $974,006 that appeared to
                       be for services covered by capitated Medicaid managed care plans in
                       California and Pennsylvania.11 However, State Medicaid agency staff
                       were unable to confirm whether these fee-for-service claims were paid in
                       error without conducting a detailed, resource-intensive claims-level
                       review. Staff from one State estimated that some claims could take up
                       to 1 hour per claim to review. Further, State staff indicated that a
                       review of these claims could involve researching system edits applied to
                       each claim, identifying any manual overrides of automated payment
                       system edits, reviewing the claims payment history, and tracking
                       payment system processing logic. Without this type of review, neither
                       OIG nor State Medicaid agency staff could determine the reasons
                       fee-for-service claims were paid, or whether these payments were for
                       services covered by capitated Medicaid managed care plans. The
                       number of paid claims and amount of fee-for-service payments made by
                       each State are outlined in Table 3.


                       Table 3: Medicaid Fee- for- Service Reimbursed Claims During the
                       3 -month Period (October 1 through December 31, 2004) Requiring
                       Claims-Level Review

                                                  Number of                                           FMAP
                       State                                                 Amount Paid                                    State Share              Federal Share
                                                    Claims                                         (percent)

                       CA                                  6,789                 $453,554              50.00                     $226,777                  $226,777

                       PA                                16,280                  $520,452              53.84                     $240,241                  $280,211

                          Total                          23,069                  $974,006                                        $467,018                  $506,988
                       Source: Office of Inspector General analysis of reimbursed claims, 2007.


                       California. We identified 6,789 Medicaid fee-for-service claims totaling
                       $453,554 that data indicated were for services covered by capitated
                       Medicaid managed care plans. State Medicaid agency staff indicated
                       that delays in entering Medicaid beneficiaries’ managed care enrollment
                       information into eligibility records may have caused the State’s
                       Medicaid automated payment system to allow these payments. State


                          11 Medicaid expenditures reported include both State Medicaid expenditures and Federal
                       financial participation based on the Federal medical assistance percentage for each State.



     OEI-07-05-00320   F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E      8
                                                                                                           Report Template Update: 06-30-07




F   I N D I N G         S


                      Medicaid agency staff also indicated that some of these paid claims may
                      have been for services provided to beneficiaries who moved or traveled
                      outside of managed care plan coverage areas but that a “great deal of
                      manual processing” would be required to definitively determine the
                      reason(s) for the payments.
                      Pennsylvania. We identified 16,280 Medicaid fee-for-service claims
                      totaling $520,452 that data indicated were covered by Medicaid
                      managed care. State Medicaid agency staff stated that these paid
                      claims would “require service record/claims-level research to determine
                      claim liability.” Services generally associated with these claims
                      included clinic visits, office visits, and laboratory services. State
                      Medicaid agency staff offered no possible reason(s) for payment of these
                      claims.




    OEI-07-05-00320   F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   9
                                                                                                       Report Template Update: 06-30-07




Δ   R E C O M M E N D A T I O N S

                  When State Medicaid programs pay fee-for-service claims for services
                  covered by capitated Medicaid managed care in error, they are
                  essentially paying twice for the same services. We identified
                  approximately $1.8 million in Medicaid claims paid or potentially paid
                  in error during a single quarter in FY 2005 in five States.
                  •	      California staff identified faulty system logic as the reason for
                          some payment errors but were unable to provide the reason(s) for
                          other payments without conducting a resource-intensive
                          claims-level review.
                  •	      Missouri staff identified inappropriate manual overrides of a
                          payment system edit as the reason for payment errors.
                  •	      New York staff could not determine the reason(s) fee-for-service
                          claims were paid in error.
                  •	      Pennsylvania staff could not definitively determine if the claims
                          we identified were paid in error or explain why these payments
                          were made.
                  •	      Wisconsin staff identified delays in updating automated payment
                          system files as the reason for the payment errors. Prior OIG
                          studies similarly identified erroneous fee-for-service payments for
                          beneficiaries enrolled in capitated Medicaid managed care.

                  Because of States’ responsibilities to ensure the integrity of the
                  Medicaid program coupled with the vulnerabilities identified in this
                  review, we recommend that CMS:
                  Work With all States To Reduce the Vulnerability for Fee-for-Service
                  Medicaid Payments for Services Covered by Capitated Medicaid Managed
                  Care Plans
                  CMS should issue guidance to States addressing Medicaid payment
                  systems’ vulnerabilities, identifying erroneous payments, and
                  developing payment systems to prevent payment errors. CMS could
                  accomplish this through:
                  •	      disseminating information to State Medicaid agencies regarding
                          the vulnerabilities that we identified (e.g., faulty system logic,
                          edits, and manual overrides);
                  •	      encouraging every State to examine existing Medicaid automated
                          payment systems to identify and correct potential errors and
                          determine whether errors are associated with State payment
                          system logic, edits, or manual overrides of system edits; and

OEI-07-05-00320   F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   10
                                                                                                        Report Template Update: 06-30-07




R 	E C O      M M E N D A T                           I O N              S


                   •	      providing technical assistance and information to State Medicaid
                           agencies regarding the importance of developing payment systems
                           that will enable State Medicaid agency staff and external
                           reviewers to more easily identify and prevent fee-for-service
                           payments for services covered by capitated Medicaid managed
                           care plans.
                   Take Appropriate Action To Collect Overpayments Associated With
                   Medicaid Claims Paid in Error From States
                   OIG will forward to CMS the identified erroneous fee-for-service claims
                   information needed to take appropriate action.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its written comments, CMS agreed with the recommendation
                   contained in the draft report. CMS recognized the importance of
                   ensuring that erroneous payments are eliminated to the fullest extent
                   possible. CMS offered as context the small amount of erroneous claims
                   that we identified and the complexity of the States’ Medicaid managed
                   care programs that we reviewed. However, the claims paid in error
                   demonstrate how these complex programs can lead to the vulnerabilities
                   identified. CMS noted in its comments that for many situations cited in
                   the report, States should have been able to control erroneous payments
                   with edits in their payment systems. OIG is now recommending that
                   CMS collect overpayments associated with the claims paid in error from
                   the States.
                   To address the OIG recommendations, CMS will remind States of the
                   importance of eliminating erroneous payments and recommend that
                   States make any necessary edits to their payment systems at the next
                   Medicaid Managed Care Technical Advisory Group call. Additionally,
                   CMS will work with States to voluntarily collect the overpayments
                   associated with erroneous fee-for-service payments. The full text of
                   CMS’s comments can be found in Appendix C.




 OEI-07-05-00320   F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   11
                                                                                                                                 Report Template Update: 06-30-07




            Δ          A P P E N D I X                                          A


Totals by State of Medicaid Managed Care Enrollment and Fee- for- Service Paid Claims for Medicaid
Beneficiaries Enrolled in Capitated Managed Care During the First Quarter of FY 2005

                                   State                  California                            Missouri           New York                    Pennsylvania                     Wisconsin

Total Number of fee-for-service (FFS)
                                                        58,395,029                          5,347,527              26,675,253                        4,000,981                  1,658,891
claims

Number beneficiaries enrolled in
                                                          3,355,339                              469,808            2,606,291                        1,248,390                    386,037
Medicaid managed care


Percentage of FFS claims associated
with beneficiaries enrolled in Medicaid                               4.5                            5.4                     11.1                            50.8                     36.0
managed care



Number of FFS claims for beneficiaries
                                                          2,650,924                              290,873            2,957,743                        2,030,780                    596,502
enrolled in Medicaid managed care



Number of FFS Medicaid paid claims
determined appropriate for
                                                          2,641,792                              289,216            2,945,146                        2,014,500                    596,478
beneficiaries enrolled in Medicaid
managed care



Number of FFS Medicaid claims
confirmed paid in error for beneficiaries                         2,343                            1,657                 12,597                              N/A*                      24
enrolled in Medicaid managed care



Medicaid expenditures for FFS
Medicaid claims confirmed paid in error
                                                           $115,296                             $270,409            $476,713                                 N/A*                  $1,246
for beneficiaries enrolled in Medicaid
managed care


Number of FFS claims requiring
                                                                  6,789                               0                           0                       16,280                        0
claims-level review



Medicaid expenditures for FFS
Medicaid claims for which no                               $453,554                                   0                           0                   $540,452                          0
determination could be made


Source: Office of Inspector General analysis of 2006 Medicaid Managed Care Enrollment Report and reimbursed claims, 2007.
*Pennsylvania Medicaid State Agency Staff were unable to identify claims paid in error without conducting claim-level reviews.




                 OEI-07-05-00320            F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E    12
                                                                                                       Report Template Update: 06-30-07




Δ   A P P E N D I X                                 B

                  Examples of Services Excluded From Capitated Medicaid Managed
                  Care Coverage in California, Missouri, New York, Pennsylvania, and
                  Wisconsin

                  The following State summaries provide examples of services generally
                  excluded from capitated Medicaid managed care plans in each of the
                  five States during the review period. We determined that the services
                  excluded often varied among States, by managed care plan, and by
                  beneficiaries’ counties of residence.
                  California
                  Capitated Medicaid managed care plans in California generally
                  excluded dental services, HIV/AIDS waiver services, alcohol and
                  substance abuse services, and services provided by the Indian Health
                  Service or a Federally Qualified Health Center from plan coverage.
                  Some California managed care plans also excluded other services, such
                  as specialty mental health services, treatment for tuberculosis, major
                  organ transplants, dental screenings, vision, acupuncture, chiropractic
                  care, personal care, case management, education assessments, lead
                  screening, adult day health care, and services provided in a Federal or
                  State hospital.
                  Missouri
                  Capitated Medicaid managed care plans in Missouri excluded: physical,
                  speech, and occupational therapy; organ transplants; community
                  psychiatric rehabilitation; comprehensive substance abuse treatment
                  and rehabilitation; targeted case management for mental health; and
                  mental health outpatient care for children in State custody or foster
                  care or receiving adoption assistance.
                  New York
                  Capitated Medicaid managed care plans in New York excluded
                  orthodontic services and the majority of mental health and alcohol and
                  substance abuse treatment services. The State does, however, have a
                  prepaid mental health plan that covers a limited range of mental health
                  services.
                  Pennsylvania
                  Capitated Medicaid managed care plans in Pennsylvania generally
                  excluded services provided through the Pennsylvania Departments of
                  Education and Mental Retardation, medical foster care or a medical
                  assistance waiver, early intervention services, and lead testing provided
                  by the Pennsylvania Department of Health.


OEI-07-05-00320   F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   13
                                                                                                           Report Template Update: 06-30-07




A   P   P E N D       I X             B


                      Wisconsin
                      Capitated Medicaid managed care plans in Wisconsin generally
                      excluded family planning, prenatal care, school-based services, specific
                      types of case management, audiology, chiropractic services, eyeglasses,
                      hearing aids, hospice, laboratory tests and x rays, pharmaceuticals,
                      ambulance transportation, and prosthetics.




    OEI-07-05-00320   F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   14
                                                                                                       Report Template Update: 06-30-07




Δ   A P P E N D I X                                 ~            C

                                                     AGENCY COMMENTS





OEI-07-05-00320   F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   15
                                                                                                           Report Template Update: 06-30-07




A   P   P E N D       I X             ~           C            





    OEI-07-05-00320   F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   16
                                                                                                       Report Template Update: 06-30-07




Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office.

                  Deborah Walden served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the Kansas
                  City regional office who contributed to the report include Amber Meurs,
                  Elander Phillips, and Brian Whitley; other central office staff who
                  contributed included Kevin Manley and Barbara Tedesco.




OEI-07-05-00320   F E E - F O R - S E R V I C E PAY M E N T S   FOR   SERVICES COVERED   BY   C A P I TAT E D M E D I C A I D M A N A G E D C A R E   17
